No. 19In the Supreme Court of the United States

EDWARD A. WEINHAUS, PETITIONER
v.
The STATE OF ILLINOIS, et. al.1,2
RESPONDENTS

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE SEVENTH
CIRCUIT
TO THE HONORABLE BRETT KAVANAUGH, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE
SEVENTH CIRCUIT:
Pursuant to this Court's Rules 13.5 and 30.2, Applicant prays for a 60-day
extension, or until December 13, 2019 to file his petition for a writ of certiorari in this
Court.
1. Timeliness, Jurisdiction,and Opinion Below. On July 16, 2019, the United
States Court of Appeals for the Seventh Circuit issued a decision denying Applicant's
federal civil rights claims for violations of his Right to Travel. The district court's
judgment is contained in Appendix A, and the Seventh Circuit's decision is contained in
Appendix B. A petition for writ of certiorari would be due, pursuant to this Court's rules
13.1, 13.3, and 30.1 on or before October 14, 2019. This application is being filed more
than ten days before that date. See Rule 30.2. The jurisdiction of this Court is to be
invoked under 28 U.S.C. ยง 1254(1).
1 The named Defendants in the Seventh Circuit who may also be named here include Barry
Chemawsky and Steven Cohen.
2 The named Defendants in the Seventh Circuit who will not be named here are Natalie Cohen and
Adrienne Chernawsky. The Applicant swore to the state court on April 11, 2019 (and in the Seventh
Circuit in April) that he would drop any claims against Natalie Cohen after it required he pay her fees
in the lower courts. Subsequently on June 9, 2019, Natalie Cohen and the Applicant agreed, with the
approval of the state court via state court order, that the Applicant would be the primary residential
parent for minor child M.W. On or about August 6, 2019, the Applicant came to an agreement with
Adrienne Chernawsky for allowing her to see M.W. which they have continued to honoredTherefore,
Applicant brings no claims against either party to this Court.

RECP1VED
OCT - 8 2019

OFFICEOF THE CLERK
SUPREMECOURT U.S.

2. Reasons for Granting the Extension.
a. Procedural History.
The Applicant is a custodial father of five children. He filed a civil rights complaint
for violations of his Right to Travel under the Privileges and Immunities Clause of the
Article IV ยง 2, the Privileges or Immunities Clause of the Fourteenth Amendment of the
Constitution, 42 U.S.C. ยง 1983 and ยง1985(3) against the State of Illinois and four
individual defendants on April 6, 2018 in the Northern District of Illinois.
The complaint alleged that the State of Illinois violated his Right to Travel and
further his due process by threatening, then ordering (subject to pending modification),
then enforcing a banishment of Applicant from Illinois as a condition of seeing his
Illinois-based children for six time periods throughout each calendar year. The complaint
further alleged that the individual defendants violated his civil rights by restricting his
Right to Travel before the State of Illinois' banishment order, after the banishment order
during the six banishment periods, and during other time periods where no banishment
was ordered.
Both the individual defendants and the State of Illinois filed motions to dismiss to
which Applicant responded and requested leave to amend. On September 14, 2018, the
district court issued a judgment granting the motions to dismiss without leave to amend
on both jurisdictional and non-jurisdictional grounds.
Applicant filed a timely appeal to the Seventh Circuit. On July 16, 2019, the
Seventh Circuit entered a non-precedential judgment affirming the jurisdictional grounds
for dismissal and amending the district court's judgment to remove all non-jurisdictional
grounds for dismissal. Upon motion by the individual defendants (and not the State of
Illinois), the Seventh Circuit granted sanctions against Applicant under Federal Rule of
Appellate Procedure Rule 38 for a frivolous appeal on the jurisdictional issues. On
September 23, 2019, the Seventh Circuit ruled that no further fees3 would be levied
against Applicant and the Court would notify the California Bar, where Applicant seeks
entry, of the sanctions.4
The Defendant State of Illinois had ordered that Applicant should pay the fees of the State of Illinois' codefendants in the matter below in its state court on April 8, 2019 - before any sanction motions had been
filed.
4 The sanction fee calculation ruling is attached as Appendix C.

3

b. Grounds for Certiorari Exist.
In Applicant's opinion, who has recently attained a law degree and passed a state
bar exam, this case presents three issues worthy of presentation to this court in a petition
for writ of certiorari:
Whether a domestic relations exception to diversity jurisdiction bars
federal court jurisdiction when the issue is a federal question?
Whether the Rooker-Feldman doctrine bars federal court jurisdiction of a
case that is not final based on the "practical finality approach," or is
otherwise not related to a court order at all? See Malhan, infra.
Whether Rule 38 Sanctions for a frivolous appeal are appropriate when
there is a split in authority among the different circuits on the issues for
which the sanctions were entered?
3. The need for an extension of time.
The petition is currently due October 14, 2019. More than two months after the
Seventh Circuit's ruling (leaving less than a month to prepare), the Third Circuit entered
a precedential opinion creating a circuit split with the Seventh Circuit's logic as applied
in the matter below regarding the application of the Rooker-Feldman doctrine.' Malhan
v. Seery United States Dep't of State, 2019 U.S. App. LEXIS 28047 Cause No. 18-3373
(3rd Cir. 2019). During the time from the Third Circuit's ruling until now, the Jewish
High Holidays period of religious observance' has begun as well as Applicant's quarter
beginning teaching in Los Angeles at the University California Los Angeles while
engaged in doctoral legal research at Washington University in St. Louis, leaving not
enough time to file a fully vetted petition to this Court by the October 14, 2019 deadline.

5 A prior circuit split on the domestic relations exception for a federal question has existed for many years.
The recent precedential Third Circuit ruling relating to Rooker Feldman necessitated the request for this
extension, preparing a petitiisypheannsideration.
6 The period of observance includes approximately four weeks of holidays including Rosh Hashannah, Yom
Kippur, Sukkot, Simchat Torah and Shemini Atzeret, ending approximately on October 22, 2019.

WHEREFORE, the Applicant-Petitioner requests that an Order be entered
extending by 60 days the time within which he may petition this Court for certiorari, to
and including December 13, 2019.

Respectfully

submitted,
EDWARD A. WEINHAUS Applicant-Petitioner

/s/ Edward A. Weinhaus
Edward A. Weinhaus, pro se
10859 Picadily Square Dr.
St. Louis, Missouri 63146
eaweinhaus@gmail.com
Phone: 314-580-9580
October 1, 2019

